AFFIDAVIT OF SERVICE
STATE OF NEW YORK
COUNTY OF WESTCHESTER

)
)
)

Ivan Diaz, being duly sworn, deposes and says that deponent is not a party to
the action, is over 18 years of age, and resides at 2160 Holland Avenue, Bronx,
New York 10462.
That on the 18th day of June, 2021 deponent served the within:
BRIEF OF AMICUS CURIAE CHARLES CANTOR, Ph.D.
IN SUPPORT OF PETITIONERS
upon designated parties indicated herein at the addresses provided below by
means of Federal Express Standard Overnight Delivery of 1 true copy of the
same at the addresses of said attorney/parties with the names of each
represented party:
JONATHAN P. BACH
LAUREN M. CAPACCIO
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
Attorneys for Respondents
Affymetrix and Applied Biosystems
CHARLES T. GRAVES
MATTHEW GORMAN
WILSON SONSINI GOODRICH &
ROSATI
Professional Corporation
One Market Plaza, Spear Tower,
Suite 3300
San Francisco, California 94105
(415) 947-2000
Attorneys for Respondent
Stephen P.A. Fodor

ROBERT P. HANEY, JR.
JAY I. ALEXANDER
SWATI R. PRAKASH
COVINGTON & BURLING LLP
The New York Times Building
620 Eighth Avenue
New York, New York 10018
(212) 841-1000
Attorneys for Respondents
Illumina, Inc., Jay T. Flatley,
David R. Walt, Kevin Gunderson,
Jian-Bing Fan, Mark Chee, Robin
M. Silva and John R. Stuelpnagel

Sworn to before me this
18th day of June, 2021

/s/ Eric R. Larke

Eric R. Larke
Notary Public, State of New York
No. 01LA5067236
Qualified in Westchester County
Commission Expires March 5, 2023

/s/ Ivan Diaz
Ivan Diaz

16297

